No. 20-1643
IN THE

Supreme Court of the United States
ARTHUR BAISLEY,
Petitioner,
v.
INTERNATIONAL ASSOCIATION OF MACHINISTS AND
AEROSPACE WORKERS, AFL-CIO,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition to the Petition for Writ of Certiorari filed in the above-captioned case this
same day complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2,289 words, based on the word-count function of
Microsoft Word – Office 365, excluding the parts that are exempted by Supreme Court
Rule 33.1(d).
Executed on July 26, 2021.
/s/ Elizabeth A. Roma
ELIZABETH A. ROMA
Counsel of Record
GUERRIERI, BARTOS & ROMA, PC
1900 M Street, NW, Suite 700
Washington, DC 20036
(202) 624-7400
eroma@geclaw.com
Counsel for Respondent

